                             ISSUE BRIEF



International Postal Big Data:
Discussion Forum Recap

May 12, 2014




                      Report Number: RARC-IB-14-002
                                                               EXECUTIVE SUMMARY

                       International Postal Big Data:
                         Discussion Forum Recap
“Big data” — large datasets combined with
                                                                     Highlights
powerful analytics — is a disruptive
technology trend that has the potential to            Big data creates enormous
change how businesses drive innovation,               opportunities for posts to become more
efficiencies, and customer satisfaction.              agile and flexible, add value to postal
                                                      operations and products, and improve
On January 28, 2014, the U.S. Postal                  interactions between posts and
Service Office of Inspector General (OIG),            customers. It can also rejuvenate posts’
in collaboration with the Universal Postal            “public service” missions.
Union, hosted postal and big data experts
to discuss how postal operators could                 Successful big data strategies require
benefit from big data and to learn from pilot         not only the development of new
                                                      capabilities, but also step-by-step
experiments conducted in the postal
                                                      implementation of major organizational
sector. This Issue Brief recaps the forum             and cultural changes.
discussion.
                                                      The first lessons from pilots conducted
The declining cost of data collection,        by postal operators confirm that big
processing and storage, combined with the     data is not “hype.” Nevertheless,
rapid accumulation of new data sources        tomorrow’s effective postal big data
and analytics tools, allows postal operators  business model is still unfolding.
to extract value from very large quantities
of internal and external data in support of
improved operational, business, and strategic decision-making.

Postal operators have already developed and are piloting innovative big data
applications with the objective of streamlining processes, reducing costs, improving
customer interaction, and creating new products and services.

The development of the Internet of Things — sensor technologies that enable physical
objects to collect and communicate data via the Internet in real-time — can open up
opportunities for posts that go far beyond current experimentation. For example, affixing
sensors to postal trucks has often been mentioned as a way to help reduce fleet
maintenance costs, optimize routes, report dead spots in mobile and wireless coverage,
and detect harmful chemical agents. Data collected by such sensors would interest


U.S. Postal Service Office of Inspector General                                        May 12, 2014
                                                  i
RARC-IB-14-002                                         International Postal Big Data: Discussion Forum Recap



more than just posts, and this information could become a basis for a new portfolio of
postal services for government agencies and other public and private entities.

New big data analytics tools also give postal operators the opportunity to extract
additional value from existing data. Some postal operators in Europe are opening large
aggregated data sets, like national address databases or mail tracking data to
innovators or city planners so they can develop new services and applications.
International postal big data analytics can provide governments with valuable real-time
snapshots of Gross Domestic Product (GDP) growth, global trade patterns, and
demographic movements.

The success of these open data initiatives will depend on postal operators’ ability to
develop clear data transparency and privacy policies. In particular, posts will have to
address critical questions such as who owns the data collected, whose permission is
needed to collect it, and under what forms and conditions it will be disseminated.

As with all disruptive technologies, big data analytics should be deployed in incremental
steps to maximize effectiveness and reduce implementation risks. Postal operators may
start by collecting and analyzing data based on clear business objectives and by
focusing on existing data before engaging in new big data plans. To succeed, they also
need to start a multi-pronged transformation process. Engaging senior management,
developing pilot tests, hiring multidisciplinary data experts, and partnering with other
data providers will be key success factors. Over time, big data should be implemented
across all business units and used as a key decision making tool at all levels.
Nevertheless, managers should be aware of the risks of over relying on big data:
analytics can help uncover correlations, but do not always provide clear-cut answers to
business issues.

Despite the clear benefits and the enormous potential of big data analytics, the right
business model for postal operators to fully harness its power is still unfolding.




U.S. Postal Service Office of Inspector General                                               May 12, 2014
                                                  ii
RARC-IB-14-002                                                                      International Postal Big Data: Discussion Forum Recap



                                                  Table of Contents
Introduction ..................................................................................................................... 1

The Round Table ............................................................................................................ 1
     Big Data Defined ........................................................................................................ 1
     Implementation Considerations ................................................................................. 2
     Opportunities for Posts .............................................................................................. 3

Key Themes .................................................................................................................... 4
     Imagining the Internet of Postal Things...................................................................... 4
     Becoming a Data-Driven Postal Organization ............................................................ 6
     Leveraging Postal Operators’ Best Practices............................................................. 7

Conclusion .................................................................................................................... 10


                                                        Appendix
Speakers and Contributors............................................................................................ 12


                                                           Figures
Figure 1                  The Internet of Postal Things................................................................. 5

Figure 2                  Examples of Business Objectives Supported by Postal Big
                          Data ....................................................................................................... 8




U.S. Postal Service Office of Inspector General                                                                            May 12, 2014
                                                                   iii
RARC-IB-14-002                                                          International Postal Big Data: Discussion Forum Recap




                       International Postal Big Data:
                         Discussion Forum Recap

Introduction
“Big data”— large sets of unstructured data that are managed and analyzed by
increasingly powerful and sophisticated tools — is one of the latest in a series of
technology revolutions that are changing the nature of business. The relentless growth
in data is fueled by the increasing volume of information captured by companies, the
rise of social media, and the development of the Internet of Things. It has the potential
to unlock enormous value to organizations that harness the power of big data as a
decision-making tool. 1

The process of how to become a data-driven organization and how postal operators
specifically can use big data to drive innovation, efficiency, and customer satisfaction
were the main topics discussed during an international online forum hosted on
January 28, 2014 by the U.S. Postal Service Office of Inspector General (OIG).
Attended by postal operators, data experts, and industry organizations, the event was
organized in collaboration with the Universal Postal Union (UPU), the U.N. specialized
agency for the postal sector.

The Round Table
The round table was divided into two sessions. The first session covered the definition
of big data and possible implementation strategies. The second session focused on how
posts are using big data and on opportunities to expand its use in the future. Specific
examples of how postal stakeholders can directly benefit from postal big data were also
provided.

Big Data Defined
The discussion revealed that there is no single,
unified definition of big data. However, in                              “Big data is about adopting
comparison to traditional data, three criteria, or                       new technologies that enable
“3V’s,” seem to characterize big data: its volume,                       the storage, processing, and
which makes it difficult to store and process, the                       analysis of data that was
                                                                         previously ignored.”
velocity at which it is produced, and the variety of
                                                                                      – Adam Houck, IBM
data sources, both structured and unstructured,
ranging from databases to tweets.


1
  “The Internet of Things” refers to the ever-growing network of physical objects with embedded sensor technologies.
This enables the objects to collect and communicate data over the Internet between one another and to other
Internet-enabled devices and systems.


U.S. Postal Service Office of Inspector General                                                                May 12, 2014
                                                         1
RARC-IB-14-002                                              International Postal Big Data: Discussion Forum Recap



According to discussants, the “3Vs” do not fully capture the essence of big data. Two
additional and perhaps more important attributes should be considered: value, the
applicability and usefulness of these new data sets to the business, and veracity, the
quality, reliability, and accuracy of the data.

Participants also discussed the following two points:

          Big data is generally data “that was previously ignored,” meaning it was either
           collected but not analyzed or not collected at all until organizations recognized its
           business value; and

          New technologies are necessary to collect, extract, clean, tag, and analyze this
           data effectively.

Implementation Considerations
In terms of big data implementation strategies, the first three speakers provided their
perspectives on possible approaches:

          Anne Washington, Assistant
           Professor at the George Mason               “Information established for internal
           University (GMU) School of Public           government programs, especially
           Policy, discussed the opportunity to        metadata like ZIP codes, legitimize
                                                       private sector big data projects.”
           create synergies between
                                                                    – Anne Washington, GMU
           government and private sector data.
           Government is a major, authoritative
           source of data that is produced and maintained over time. These large public
           datasets represent reliable information infrastructures that the private sector
           could leverage to develop big data projects. Nevertheless, to fully harness the
           power of public sector data, governments will have to balance demands for data
           quality, transparency, and privacy. This will require governments to collaborate
           with scientists, data archivists, lawyers, and policy experts.

          Adam Houck, Managing Consultant, Advanced Analytics with IBM Business
           Consulting Services, discussed a road map to big data implementation. The first
           step is to leverage existing data before undertaking additional big data plans, and
           then build analytics capabilities based on clear business objectives. In addition,
           big data plans should be developed from the start with customers’ needs in mind
           to ensure a customer-centric approach to data. Implementation also requires
           organizational changes to ensure the integration of analytics across business
           units, as well as effective change-management processes. Finally, Houck
           warned the audience on the risks of over relying on data analytics. Big data does
           not always provide clear-cut answers to business issues, and senior
           management needs to develop new skills to interpret and act upon data.




U.S. Postal Service Office of Inspector General                                                    May 12, 2014
                                                  2
RARC-IB-14-002                                                      International Postal Big Data: Discussion Forum Recap



          Michael Nelson, Principal Technology Policy Strategist at Microsoft, offered his
           own definition of big data and presented his views on how postal operators can
           leverage it. 2 The first challenge for posts is to understand the broad spectrum of
           uses for the data — for instance,
                                                           “Make part of your data available in
           monitoring customer sentiment,                 open formats to the community. …
           improving their brand and image, and           Find out how that can lead to new
           designing new products and services.           applications in big data.”
                                                                          – Michael Nelson, Microsoft
           In addition, postal operators should
           exploit their unique competitive
           advantages: an infrastructure that covers the whole country, the ownership of
           critical data sets such as national address databases, and their universal
           reputation as a trusted “steward of information.” Posts could leverage their role
           as a trusted third party and participate in the “open data” revolution by making
           postal data publicly available for innovators to develop new services and
           applications. To succeed, however, they will need to design transparent data
           policies, hire best-of-class data experts, and combine the new digital data-
           oriented culture with their traditional, operations-driven approach.

Opportunities for Posts
Opportunities clearly abound for posts when it comes to big data. Posts and other
industry players have already experienced some successful use cases:

          Mohammad Adra, Assistant
                                                     “There is no lack of postal data — it is
           Inspector General for the Risk
                                                     already big. Let’s start to address the
           Analysis Research Center at the           imbalance between the plethora of data
           OIG, discussed how the dramatic           and the paucity of analysis, and extract
           decline in the cost of sensors,           value out of it.”
           connectivity, data processing, and                    – Mohammad Adra, USPS OIG
           mass storage has fostered the
           emergence of the Internet of Things. The postal sector is already an extremely
           data-rich environment. In the future, the possibility of equipping the postal
           network (vehicles, mailboxes, mail pieces and parcels, sorting centers, etc.) with
           low-cost sensors will exponentially expand the capability of postal operators to
           collect valuable data. However, postal operators will not be able to benefit fully
           from the amount of postal data available until they have put in place tools and
           strategies to analyze it effectively and efficiently.

          Katrin Zeiler, Project Manager, Customers Solutions and Innovations at
           Deutsche Post DHL; Delphine Desgurse, Director of Digital Strategy at La Poste;
           and Ulisse Del Gallo, Manager ICT Business Development at Poste Italiane,
           presented their companies’ big data use cases. These operators are currently
           using big data to achieve the following objectives: create new products and

2
 Michael Nelson coined the acronym “BFMUDD” to describe the main features of big data: Big, Fast, Messy,
Unstructured, Distributed Data.


U.S. Postal Service Office of Inspector General                                                            May 12, 2014
                                                       3
RARC-IB-14-002                                             International Postal Big Data: Discussion Forum Recap



           services, add value to existing ones, support sales, cut costs, and streamline
           processes. The speakers also provided concrete examples of the big data-based
           solutions that they have launched or are planning to launch in the future.

          Jody Berenblatt, Advisor at GrayHair Software, called on the U.S. Postal Service
           to make its data more useful to customers. One way would be to make change-
           of-address information available faster and more frequently to mailers. Mailers
           would also benefit from getting more data on delivery dates. For cross-border
           mail, posts could simplify access to data generated along the supply chain, such
           as customs data. More importantly, big data analytics could help enhance the
           return on investment on mail, particularly direct mail.

          Jose Anson, Economist at the UPU, presented the first results of his new
           research on the predictive power of international postal data as a real-time
           indicator for trade flows, GDP fluctuations, and other socio-economic trends. If
           postal operators would share additional international postal big data with the
           UPU, it could become a “trusted big data repository,” able to help both the global
           postal community and governments better define policies and serve citizens.

Key Themes
The forum covered a wide variety of topics, recommendations, and best practices. The
OIG took away the following key themes:

          Imagining the Internet of Postal Things – The integration of information
           technologies and new sensor-based operational technologies can bring dramatic
           improvements to postal operators in terms of new product offerings, better
           operational diagnostics, and insights into consumer behavior for a better
           customer experience and increased satisfaction. In addition, the Internet of
           Postal Things could have a positive spillover effect on other adjacent non-postal
           sectors, as the information collected by and for the Postal Service could be
           useful to others.

          Becoming data-driven organizations – It is important for postal operators to
           take the strategic steps necessary to enable a timely and cost-effective
           implementation of big data plans from collection, to analytics, to successful
           usage.

          Leveraging postal operators’ best practices – Posts should capitalize on the
           best practices of other postal operators to develop, test, and launch innovative
           big data solutions that reduce costs, generate revenue, or provide economic and
           social good.

Imagining the Internet of Postal Things
Postal operators already collect a plethora of information from their rich physical
networks. The Postal Service, for example, scans mail pieces and parcels up to 11


U.S. Postal Service Office of Inspector General                                                   May 12, 2014
                                                  4
RARC-IB-14-002                                                       International Postal Big Data: Discussion Forum Recap



times, which represents a potential of 1.7 trillion scans a year. Its big data
supercomputer center is one of the most powerful in the United States.

Postal operators generate an increasing amount of data from customers, workers,
processes, and equipment. In theory, each component of the physical infrastructure —
whether a mailbox, a vehicle, a machine, or a letter carrier equipped with a sensor —
could become a source of new data. The deployment of new software applications
(operational technologies) could help posts monitor and control these assets and
processes and effectively analyze and structure the data collected.

The convergence between the increasing amount of actionable data, the ubiquity of
network connectivity to integrate and share this data, and the rapid development of
analytics may open up a new world of opportunities for postal operators — the “Internet
of Postal Things.”

                                        Figure 1: The Internet of Postal Things




                              Source: OIG Graphic.


U.S. Postal Service Office of Inspector General                                                             May 12, 2014
                                                          5
RARC-IB-14-002                                                          International Postal Big Data: Discussion Forum Recap



To avoid getting lost in this growing universe of data, postal operators will have to refine
their ability to identify opportunities that can offer the most competitive advantage or
return on investment, as well as develop an integrated approach to data. Participants
indicated the following actions as the key steps for posts to benefit fully from the Internet
of Postal Things:

          Select and analyze data based on clear business objectives, such as creating
           efficiencies, increasing revenue, or improving the customer experience,

          Focus on existing data first — what Gartner calls the “dark data,” which is
           information that is either already collected but not yet analyzed, or data, that if
           further analyzed with more powerful analytics tools, could reveal new valuable
           insights,

          Ensure the convergence between operational technologies (OT) and information
           technologies (IT). For instance, sensor data from vehicles could be combined
           with data from existing Enterprise Resource Planning (ERP) systems for vehicle
           fleets to be better managed,

          Expand the value of the big data collected through the postal infrastructure by
           integrating it into the broader “Cloud of Things” with data and sensors run by
           other stakeholders, such as private companies. 3

By integrating operational and information technologies across company processes,
posts can improve their performance, reduce their costs, and optimize postal processes.
For example, they could move toward real-time optimization of their sorting,
transportation, and delivery processes. Finally, integrating IT and OT can help provide
more effective and comprehensive dashboards for managers to make faster and more
informed decisions.

Becoming a Data-Driven Postal Organization
Participants indicated that turning postal operators into data-driven organizations is a
continuous process that includes the following key steps:

          Taking into account customers’ needs from the outset – Postal operators’
           big data strategies should go
           beyond increasing operational     “Look at the data you currently have
           efficiency and look into ways to  and enrich it to make it more valuable
           collect and generate data able to and more useful to customers. If you
                                             were mailing a payment to a bank,
           drive customer satisfaction and
                                             wouldn’t you like to see the path of that
           loyalty. For example, some posts  mail piece?”
           have started working more            – Jody Berenblatt, Grayhair Software
           closely with their business

3
 Michael Nelson contacted the OIG after the Forum regarding the term “Internet of Postal Things”. In his opinion,
what matters is not the “Things” but the data they generate and the way they are stored and analyzed.


U.S. Postal Service Office of Inspector General                                                                May 12, 2014
                                                          6
RARC-IB-14-002                                             International Postal Big Data: Discussion Forum Recap



           customers to understand what categories of big data they should share or collect
           to help customers improve their performance and bottom line.

          Raising awareness about big data – DHL and La Poste recommended that
           posts start their big data journey by making senior management and
           shareholders aware of big data opportunities and challenges. The development
           of strong business cases is essential for CEOs to recognize the business value
           of big data and to initiate a big data strategy.

          Putting innovation at the forefront – DHL’s big data strategy is the brainchild
           of the Customer Solutions and Innovations division. They identified big data on
           their “logistics trends radar” a couple of years ago and are now conducting pilots
           that cover a wide range of applications. This division brings together futurists,
           engineers, and marketers to work jointly on new business solutions. They
           manage the entire product development process — from early trends analysis to
           use cases, pilot tests, and the launch of products.

          Bringing in new skills – La Poste is training its marketing experts, who are
           learning to pull the datasets they need from the company’s large data
           warehouses (DataNova project). Posts also need to hire multi-disciplinary
           experts bridging different fields — not just experts in data management. This
           could include data scientists who have a background in operations or marketing.
           There is also a growing need for lawyers specialized in data privacy and
           transparency to help posts develop new policies. Finally, organizational changes
           will be required to break down organizational silos between IT and other teams
           and to ensure the integration of analytics across business functions.

          Partnering on data and new services – Speakers stressed the importance of
           partnerships. DHL builds big data projects around multiple partnerships with
           research institutes and customers, who actively participate in the research and
           prototyping work. They also partner with other providers of big data, such as
           telecom operators, to support DHL’s predictive analytics.

Leveraging Postal Operators’ Best Practices
The representatives from the three postal operators reported that they were starting to
explore new opportunities offered by big data. Although priorities varied, these postal
operators were focused on two main goals. On one hand, they use big data to
strengthen the core through cost reductions, efficiencies, product innovation, and
customer interaction. On the other, big data also allows postal operators to better fulfill
broader public service missions, such as supporting economic growth and government
services.




U.S. Postal Service Office of Inspector General                                                   May 12, 2014
                                                  7
RARC-IB-14-002                                                          International Postal Big Data: Discussion Forum Recap



             Figure 2: Examples of Business Objectives Supported by Postal Big Data




                                 Source: OIG Graphic.

          Optimizing processes: operations and sales – Big data helps postal operators
           streamline operational processes, such as mail and parcel processing and
           delivery, and reduce fixed costs (e.g. transportation costs can be reduced
           through dynamic routing). DHL, for example, developed a tool to analyze
           correlations between external factors such as weather, flu epidemics, Google
           trends, and shipment data. The result was a model that allows them to predict
           parcel volumes and better determine delivery staff and vehicle requirements.
           Predictive maintenance applications are also on the rise. La Poste has equipped
           new electric vehicles with sensors that track vehicles’ vital statistics.

           In the postal sector, as in other industries, analytics now drive customer life-cycle
           management. Australia Post is using predictive analytics to develop daily
           customer sales forecasts and to predict the profitability of products. Gaining
           better insight into customer interactions with the post also contributes to
           increased customer satisfaction. Poste Italiane’s newly deployed big data
           architecture supports financial services sales in two main ways: credit risk
           assessment and the real-time generation of tailor-made offerings and discounts
           for mobile banking customers.

          Enriching product offerings – Speakers presented various examples of
           disruptive big data-based product innovations. DHL MyWays is a crowd logistics
           platform, a “crowdshipping” service, connecting individual parcel shippers with
           occasional parcel deliverers (such as commuters). 4 Potential deliverers can
           “reserve” and pick up parcels, which they deliver to the recipient. Using an ad
           hoc mobile app, the service connects individuals who ask for flexible deliveries




4
 To learn more about DHL’s use of big data in logistics see: “Big Data in Logistics - A DHL perspective on how to
move beyond the hype,” December 2013,
http://www.dhl.com/content/dam/downloads/g0/about_us/innovation/CSI_Studie_BIG_DATA.pdf.


U.S. Postal Service Office of Inspector General                                                                May 12, 2014
                                                         8
RARC-IB-14-002                                                           International Postal Big Data: Discussion Forum Recap



           with those offering to transport parcels along their daily routes. DHL conducted a
           pilot test in Sweden in the second half of 2013. 5

           Posts could also leverage big data to help with the development of new
           customer-centric delivery services — competitors already do. One presenter
           referred to the SoPost platform, which, in the UK, lets people use Facebook and
           Twitter accounts as their postal address for the delivery of gifts or product
           samples, without actual delivery details being shared.

           Several postal operators already use big data to help direct mailers better target
           their mail campaigns. As indicated by Jody Berenblatt, mailers would benefit from
           big data — it could assist in analyzing direct mail pieces’ delivery dates in
           conjunction with information on the date the consumer responded to that piece,
           and on the channel used (mail, Internet, in-store, etc.).

          Supporting economic growth – One participant called on posts “to imagine a
           world where postal operators would provide insights useful to new businesses.”
           For instance, postal big data could help retailers select new retail sites. DHL
           presented a solution they already offer to businesses: GeoVista. This online
           geomarketing tool allows German businesses to analyze location and product
           potential. Detailed geodata from Deutsche Post Direct has been combined with
           external socio-demographic and housing data, as well as statistics on
           consumption patterns. This tool helps users prepare realistic sales forecasts
           based on a scientific model or select new retail locations and is provided for a
           fee.

           One participant shared his vision of a postal big data platform, which would be a
           repository for postal and non-postal big data. Entrepreneurs and government
           agencies would freely access it and team up with the post and other participants
           to think through new services based on the data. Based on the same premise,
           La Poste’s Dataposte program promotes experimentation and discovery.
           Working with innovative software companies, La Poste aims at co-creating new
           services that leverage its databases, such as postcodes, post office locations, or
           change of address files.

          Supporting government services and policies – Several participants referred
           to a 2010 paper by Michael Ravnitzky of the Postal Regulatory Commission,
           which suggested the application of sensors on all postal vehicles and envisioned
           a number of potential uses for the data collected. For example, sensors could
           detect chemical or biological agents or radiological materials. Accelerometer
           sensors could evaluate road conditions and detect potholes to help municipalities



5
   On crowdshipping, solutions, see also U.S. Postal Service Office of Inspector General, Using the ‘Crowd’ to Deliver
Packages, February 12, 2014, http://www.uspsoig.gov/sites/default/files/document-library-
files/2014/using_the_crowd_to_deliver_packages.pdf.


U.S. Postal Service Office of Inspector General                                                                 May 12, 2014
                                                          9
RARC-IB-14-002                                                          International Postal Big Data: Discussion Forum Recap



           prioritize repairs. Government departments and agencies at all levels could use
           this data to set policies and plan
           actions to address potential
           issues. 6
                                                              “…Can you imagine a world where
                                                              postal services would provide heat
           The value of international postal
                                                              maps showing population movements
           big data was also emphasized.                      after disasters, where people are in
           The UPU records 100 billion data                   economic stress, and how well policies
           points every year — mainly                         are working on the ground?”
           tracking data related to                            – Robert Kirkpatrick, U.N. Global Pulse
           international letters, packages,
           express items, and payments.
           International postal data could provide operational insights to help build a more
           resilient international postal network. This data could also be used as an effective
           real-time proxy for trade flows and GDP trends. 7

           Robert Kirkpatrick, Director of the UN Global Pulse, echoed these views. Even in
           countries where mobile-phone ownership and Internet penetration rates are low,
           people send and receive mail, packages, or remittances and visit local post
           offices. In other words, they are still creating “digital footprints” — online data
           trails — through interactions with the postal system. Working with the UPU and
           other international agencies, the UN is spearheading research to develop big
           data-based solutions which provide real-time insights to inform policymakers on
           topics such as public health, food security, migration, economic activity and
           disaster relief.

Conclusion
Beyond the current hype, postal big data is an emerging reality. Several postal
operators have already used it to develop or enhance products, services, and
applications. Big data analytics can support any line of business — mail, parcels,
logistics, retail, or financial services. It can support a variety of business goals, from
process optimization and cost reduction to customer interaction or revenue generation.
Open data strategies can also help postal operators rethink and innovate their “public
service” mission in support of government services and economic growth.

Advances in data collection and analytics will allow posts to derive more value from their
existing data, collect and analyze new information in real-time, and combine it with a
limitless supply of external structured and unstructured data. Managing this new
plethora of data effectively is a major challenge that requires a new mindset.


6
  Postal Regulatory Commission, “Offering Sensor Network Services Using the Postal Delivery Vehicle Fleet,”
http://www.prc.gov/(S(je2vev45qxfhtai2g3npcczd))/prc-
docs/newsroom/techpapers/MJR%20Postal%20Sensors%20Paper_1061.pdf.
7
  To learn more about the UPU’s project to use big postal data analytics to monitor global trade and business cycles,
see chapters 7 and 8 of the UPU’s book “Development Strategies for the Postal Sector: An Economic Perspective”
http://www.upu.int/uploads/tx_sbdownloader/publicationTrendsDevelopmentStrategiesForThePostalSectorEn.pdf.


U.S. Postal Service Office of Inspector General                                                                May 12, 2014
                                                         10
RARC-IB-14-002                                          International Postal Big Data: Discussion Forum Recap



In particular, building the right multidisciplinary capabilities, adapting organizational
structures, and partnering with multiple providers and users of big data — whether
mailers, recipients, businesses, or government — will be key factors for success. At the
same time, postal operators will have to define clear data transparency and privacy
policies to be able to benefit from data while preserving their role as a trusted steward of
information.

In the end, all participants agreed that the potential of big data is enormous;
nevertheless, the right business model for postal operators to fully harness the power of
big data is still unfolding.




U.S. Postal Service Office of Inspector General                                                May 12, 2014
                                                  11
RARC-IB-14-002                                         International Postal Big Data: Discussion Forum Recap



Appendix                         Speakers and Contributors




Mohammad Adra, U.S. Postal Service Office of Inspector General
madra@uspsoig.gov

Mohammad A. Adra is the Assistant Inspector General for the Risk Analysis Research
Center (RARC) of the U.S. Postal Service Office of Inspector General (OIG). He has
been with the OIG since 2002. Prior to his OIG tenure, he worked 5 years for the U.S.
Postal Service in pricing and 5 years for the Energy Information Administration in
mathematical modeling and energy demand forecasting. Mr. Adra received his master’s
in applied economics from John Hopkins University and an MBA from Humboldt State
University. He also received his bachelor’s degree in mathematics from the University of
Colorado.




Jose Anson, Universal Postal Union
jose.anson@upu.int

Mr. Anson has been Data Scientist and Economist at the Universal Postal Union, the
United Nations specialized agency for the postal sector, since 2005. His research areas
include real-time data models, postal sector policies and strategies, postal reform in
developing and emerging countries, inclusion policies, and development strategies. Mr.
Anson holds a Ph.D. in Economics from HEC Lausanne business school (Switzerland).




Jody Berenblatt, Grayhair Advisors
jody@grayhairadvisors.com

Ms. Berenblatt has been a Senior Advisor with GrayHair Advisors since 2012. GrayHair
Advisors provides customized consulting services to address mail-related strategic

U.S. Postal Service Office of Inspector General                                               May 12, 2014
                                                  12
RARC-IB-14-002                                         International Postal Big Data: Discussion Forum Recap



issues from planning through execution. She was previously a Senior Director, Postal
Commerce, at Direct Brands, and a Senior Vice President, Postal Strategy, at Bank of
America. Ms. Berenblatt has been actively engaged with various postal industry related
committees and organizations for several decades, including 5 years as Vice-Chair and
Chair of the Association for Postal Commerce. She holds a BA, Liberal
Arts/Interdisciplinary from the New School University.




Ulisse Del Gallo, Poste Italiane
Mr. Del Gallo has been a Manager, ICT Business Development, Government and
International Markets, at Poste Italiane since 2013. His role involves leveraging the IT
capabilities required to support new businesses, such as payments solutions or
government services. He was previously the CIO of Postel, the Italian post’s document
management subsidiary. Prior to that, he was for many years with Accenture, as a
Project Manager assisting postal operators with the implementation of digital services
projects. Mr. Del Gallo holds a degree in Economics from LUISS University (Rome).




Delphine Desgurse, Groupe La Poste
delphine.desgurse@laposte.fr

Ms. Desgurse has been Groupe La Poste’s Head of Digital Strategy and Innovation
since 2013. She was previously the head of market intelligence in the innovation
department. Prior to working for the French postal operator, she was for many years a
senior marketing and strategy consultant in the IT and telecom sectors, and a market
research manager in the automotive sector. She holds a business degree from French
business school ESSEC, and a Master of Sciences from the University of Sussex in the
U.K.




U.S. Postal Service Office of Inspector General                                               May 12, 2014
                                                  13
RARC-IB-14-002                                         International Postal Big Data: Discussion Forum Recap




Wendy Eitan, Universal Postal Union
wendy.eitan@upu.int

Wendy Eitan is the Product Strategy, Integration and Economics Coordinator for the
Universal Postal Union. In this role, she is responsible for the development of UPU
basic services (Letter post, small packets and Parcel post) in accordance with the UPU
Congress Strategy. In addition, Wendy supervises advanced postal economic studies
covering topics of interest to the members of the UPU and the postal sector. Wendy
began working for the UPU in December 2012. Prior to taking up this function, she
worked as Director of International Relations in the Operations department of Israel
Post. Within this role, Wendy was involved with the development and operations of all
international mail products.




Adam Houck, IBM
ahouck@us.ibm.com

Mr. Houck has been a Senior Managing Consultant in the Advanced Analytics practice
with IBM since 2003, concentrating on the postal sector. His research areas include
emerging and alternative business models for posts, utilizing new data sources and
techniques to drive postal innovation, and the impact of postal operations on the
environment. He has recently worked with the OIG to research tracking technologies
and their relevance to the postal industry. Mr. Houck holds a Master’s Degree in
Economics from North Carolina State University.




Robert Kirkpatrick, United Nations
kirkpatrick@unglobalpulse.org




U.S. Postal Service Office of Inspector General                                               May 12, 2014
                                                  14
RARC-IB-14-002                                         International Postal Big Data: Discussion Forum Recap



Mr. Kirkpatrick is Director, Global Pulse, in the Executive Office of the Secretary-
General of the United Nations. Global Pulse is an innovation initiative of the UN
Secretary-General exploring how new, digital data sources and real-time analytics
technologies can help policymakers gain a better understanding of changes in human
well-being and emerging vulnerabilities. Mr. Kirkpatrick has spent more than 15 years
developing technology solutions for public and private sector organizations, and was the
founding CTO of the Silicon Valley global health and disaster technology NGO
InSTEDD, and the co-founder of Microsoft Humanitarian Systems. Mr. Kirkpatrick holds
a BA in Greek and Latin from the University of North Carolina and took courses at
Harvard University as part of its Special Students Programs.




Michael Nelson, Microsoft and Georgetown University
mrn24@georgetown.edu

As a Principal Technology Policy Strategist with Microsoft, Mr. Nelson is working to help
define Microsoft's vision of the connected future, and to promote emerging technologies
with governments around the world. Since January 2009, he has also been teaching
courses and doing research at Georgetown University on the future of the Internet,
cyber-policy, technology policy, innovation policy, and e-government. Mr. Nelson
previously held senior positions with IBM and the FCC. He was Special Assistant for
Information Technology at the White House Office of Science and Technology Policy
during the Clinton administration. Mr. Nelson holds a Ph.D. in geophysics from MIT.




Michael Ravnitzky, U.S. Postal Regulatory Commission

michael.ravnitzky@prc.gov

Michael Ravnitzky serves as Chief Counsel to the Chairman of the Postal Regulatory
Commission. He has worked at the Commission since 2005. He received a law degree
from William Mitchell College of Law and a Bachelor’s Degree in Physics from Cornell
University.




U.S. Postal Service Office of Inspector General                                               May 12, 2014
                                                  15
RARC-IB-14-002                                         International Postal Big Data: Discussion Forum Recap




Anne L. Washington, George Mason University
awashi14@gmu.edu

Anne L. Washington is an Assistant Professor in the Organization Development and
Knowledge Management Program in the George Mason University School of Public
Policy. Her current research areas include open government data and “political
informatics,” which brings big data principles to the study of government and politics.
Ms. Washington holds a PhD in Information Systems from George Washington
University, School of Business. Before completing her PhD, she had extensive work
experience in the financial services and technology industries. She also was with the
Congressional Research Service at the Library of Congress specializing in legislative
systems for 9 years.




Katrin Zeiler, Deutsche Post DHL
Katrin.Zeiler@dhl.com

Ms. Zeiler has been a Project Manager with DHL Customers Solutions and Innovations
since 2011, where she analyzes long-term trends that affect the global logistics
business. She holds a Bachelor of Business Administration (BBA) from Hotelschool The
Hague in the Netherlands.




U.S. Postal Service Office of Inspector General                                               May 12, 2014
                                                  16
RARC-IB-14-002                                                         International Postal Big Data: Discussion Forum Recap




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                             Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                                               May 12, 2014
